<html>
<title> - RIGHTSIZING TSA BUREAUCRACY AND WORKFORCE WITHOUT COMPROMISING SECURITY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






RIGHTSIZING TSA BUREAUCRACY AND WORKFORCE WITHOUT COMPROMISING SECURITY

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON TRANSPORTATION SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 28, 2012

                               __________

                           Serial No. 112-80

                               __________

       Printed for the use of the Committee on Homeland Security





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________

                  U.S. GOVERNMENT PRINTING OFFICE

76-606 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2250  Mail: Stop SSOP, Washington, DC 
20402-0001





                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Cedric L. Richmond, Louisiana
Joe Walsh, Illinois                  Hansen Clarke, Michigan
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Ben Quayle, Arizona                  Kathleen C. Hochul, New York
Scott Rigell, Virginia               Janice Hahn, California
Billy Long, Missouri                 Vacancy
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

                SUBCOMMITTEE ON TRANSPORTATION SECURITY

                     Mike Rogers, Alabama, Chairman
Daniel E. Lungren, California        Sheila Jackson Lee, Texas
Tim Walberg, Michigan                Danny K. Davis, Illinois
Chip Cravaack, Minnesota             Cedric L. Richmond, Louisiana
Joe Walsh, Illinois, Vice Chair      Bennie G. Thompson, Mississippi 
Mo Brooks, Alabama                       (Ex Officio)
Peter T. King, New York (Ex          Vacancy
    Officio)
                     Amanda Parikh, Staff Director
                   Natalie Nixon, Deputy Chief Clerk
                 Vacant, Minority Subcommittee Director



















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Chairman, Subcommittee on Transportation 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Transportation Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     5

                               Witnesses

Rear Admiral David Nicholson (USCG-Ret.), Assistant Administrator 
  for Finance and Administration, Chief Financial Officer, 
  Transportation Security Administration:
  Oral Statement.................................................     7
  Joint Prepared Statement.......................................    13
Mr. Christopher L. McLaughlin, Assistant Administrator for 
  Security Operations, Transportation Security Administration:
  Oral Statement.................................................     8
  Prepared Statement.............................................    13
Major General Sean J. Byrne (USA-Ret.), Assistant Administrator 
  for Human Capital, Transportation Security Administration:
  Oral Statement.................................................    10
  Prepared Statement.............................................    13
Mr. James G. Duncan, Assistant Administrator for Professional 
  Responsibility, Transportation Security Administration:
  Oral Statement.................................................    12
  Prepared Statement.............................................    13

                             For the Record

The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Transportation Security:
  Letter.........................................................    23

 
RIGHTSIZING TSA BUREAUCRACY AND WORKFORCE WITHOUT COMPROMISING SECURITY

                              ----------                              


                       Wednesday, March 28, 2012

             U.S. House of Representatives,
           Subcommittee on Transportation Security,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 3:02 p.m., in 
Room 311, Cannon House Office Building, Hon. Mike Rogers 
[Chairman of the subcommittee] presiding.
    Present: Representatives Rogers, Cravaack, Jackson Lee, 
Davis, and Richmond.
    Mr. Rogers. The Committee on Homeland Security's 
Subcommittee on Transportation Security will come to order.
    The committee is meeting today to examine the increasing 
staff levels at the Transportation Security Administration.
    I now recognize myself for an opening statement.
    I want to welcome all of the witnesses for being here today 
and apologize for the delay that votes had on all of your 
schedules. I appreciate your accommodation, and I look forward 
to your testimony. I know it takes time to prepare this and it 
is not always easy to schedule being here, but it is helpful to 
us.
    The growth of TSA's bureaucracy has outpaced the number of 
travelers the agency was designed to protect. The goal of this 
hearing is to more fully understand why this is the case and 
hear what steps TSA plans to take to address this problem. 
Securing our Nation's transportation system is paramount, and 
for that reason we must ensure that every dollar TSA spends 
directly addresses that goal.
    We all appreciate the incredible microscope TSA and its 
employees are under. There are very few Federal Government 
entities that interact with as many Americans on a daily basis 
as TSA does. However, this hearing goes beyond the behavior or 
mistakes made by TSA personnel. Today's hearing is about 
understanding why TSA's bureaucracy has expanded so 
dramatically and learning what steps need to be taken to 
prevent further unnecessary expansion.
    Given the challenging economic climate we are facing, TSA 
should be making personnel decisions and many decisions that 
impact spending with a keen eye toward their impact on 
enhancing and improving security. Any dollar that does not 
enhance security should not be spent by TSA.
    With an annual budget approaching $8 billion, we need to 
ask the question of whether the TSA staffing model is efficient 
and effective. We all need to learn to do more with less, and I 
believe TSA is capable of doing just that without compromising 
security.
    In the years following 9/11, we all supported the rapid 
expansion of TSA as both necessary and justified. However, the 
growth now appears to be limitless. We need to examine how it 
is possible that we need more screeners when we have fewer 
people screened.
    TSA has evolved significantly since its formation after 9/
11. I am supportive of Administrator Pistole's efforts to make 
TSA a more risk-based, counterterrorism-focused agency. The 
initial implementation of PreCheck, TSA's risk-based passenger 
screening initiative, thus far appears to be successful, and I 
look forward to seeing it expanded.
    Having said that, my concern and the concern of many of my 
colleagues is that TSA does not view risk-based screening and 
other initiatives as a means to a more efficient staffing 
model. Instead, the bureaucracy continues to grow, despite the 
tangible benefit that risk-based screening could help us 
realize in the way of fewer screeners.
    The fiscal year 2013 request for personnel compensation and 
benefits for airport screeners is more than $3 billion. This 
figure represents roughly 40 percent of TSA's total budget. 
Without oversight and intervention, this number has the 
potential to skyrocket even higher. We need to learn today why 
that number is so high, what TSA's overtime costs look like, 
and how we can keep that number from expanding without tangible 
security need.
    Today I look forward to hearing directly from the 
leadership of the Transportation Security Administration about 
the steps TSA plans to take to curb the growth of its 
bureaucracy and ways that we can reduce the burdens on 
taxpayers.
    [The statement of Mr. Rogers follows:]
               Prepared Statement of Chairman Mike Rogers
                             March 28, 2012
    I would like to welcome everyone to this hearing and thank all of 
our witnesses. We look forward to your testimony and greatly appreciate 
your time.
    The growth of TSA's bureaucracy has outpaced the number of 
travelers the agency was designed to protect. The goal of this hearing 
is to more fully understand why this is the case, and hear what steps 
TSA plans to take to address this problem. Securing our Nation's 
transportation systems is paramount, and for that reason we must ensure 
that every dollar TSA spends directly addresses that goal.
    We all appreciate the incredible microscope TSA and its employees 
are under. There are very few Federal Government entities that interact 
with as many Americans on a daily basis as TSA does.
    However, this hearing goes beyond the behavior or mistakes made by 
TSA personnel. Today's hearing is about understanding why TSA's 
bureaucracy has expanded so dramatically, and learning what steps need 
to be taken to prevent further unnecessary expansion.
    Given the challenging economic climate we are facing, TSA should be 
making personnel decisions and any decisions that impact spending with 
a keen eye towards their impact on enhancing and improving security. 
Any dollar that does not enhance security should not be spent by TSA.
    With an annual budget approaching $8 billion, we need to ask the 
question of whether TSA's staffing model is efficient and effective. We 
all need to learn to do more with less, and I believe TSA is capable of 
doing just that without compromising security.
    In the years following 9/11, we all supported the rapid expansion 
of TSA as both necessary and justified; however, that growth now 
appears to be limitless. We need to examine how it is possible that we 
need more screeners when we have fewer people to be screened.
    TSA has evolved significantly since its formation after 9/11. I am 
supportive of Administrator Pistole's efforts to make TSA a more risk-
based counter-terrorism focused agency. The initial implementation of 
Pre-Check, TSA's risk-based passenger screening initiative, thus far 
appears to be successful, and I look forward to seeing it expand.
    Having said that, my concern, and the concern of many of my 
colleagues is that TSA does not view risk-based screening and other 
initiatives as a means to a more efficient staffing model. Instead, the 
bureaucracy continues to grow, despite the tangible benefit that risk-
based screening could help us realize in the way of fewer screeners.
    The fiscal year 2013 request for Personnel, Compensation, and 
Benefits for airport screeners is more than $3 billion; this figure 
represents roughly 40% of TSA's total budget. Without oversight and 
intervention, this number has the potential to skyrocket even higher. 
We need to learn today why that number is so high, what TSA's overtime 
costs look like, and how we can keep that number from expanding without 
a tangible security need.
    Today, I look forward to hearing directly from the leadership of 
the Transportation Security Administration about the steps TSA plans to 
take to curb the growth of its bureaucracy; and ways we can reduce the 
burden on taxpayers.

    Mr. Rogers. With that, I now recognize the Ranking Member 
and my friend from Texas, the gentlelady, Ms. Jackson Lee, for 
her opening statement.
    Ms. Jackson Lee. Mr. Chairman, thank you. I really do look 
forward to working with you on what are some enormously vital 
issues.
    I think we do have a slight disagreement, however, because 
I believe that the matrix through which we look through, 
particularly TSA, involves the responsibility of TSO officers 
to be in place, regardless of the flow of passengers, for the 
security of the aviation infrastructure at airports and 
elsewhere. In addition, if you look to some of our privatized 
airports--say, for example, San Francisco--they have the same 
number of privatized individuals that would be if it was TSO 
officers.
    So we need to look at this question. I want to tell my 
friends that all offsets--as someone said all progress is not 
good, all offsets are not good, as well. So I look forward to 
the discussion. The Chairman and I have always had ways of 
coming together on these issues, and I look forward to a 
vigorous discussion.
    Mr. Chairman, I hope to quickly go through my opening 
statement, but I am troubled, and because we are in a 
transportation security hearing, I want to start by 
acknowledging the efforts undertaken by the passengers and 
flight crew yesterday aboard JetBlue Flight 191 from New York 
City to Las Vegas. Their brave and astute course of action 
mitigated what could have been an unforgettable tragedy. I want 
to particularly note two former NYPD police. They were 
magnificent.
    But unfortunately this is not the first time an incident 
like this has threatened passengers in the sky. Just hours 
after this particular incident took place, the media reported 
that a passenger was arrested for being disruptive aboard a 
flight. Earlier this month, passengers subdued an American 
Airlines flight attendant after she became disruptive. A co-
pilot a couple years ago was reportedly removed from Air 
Canada. As we recall, the famous incident with a flight 
attendant exiting with a beer can. Then, of course, the 
enormous acts of passengers on December 25, 2009, the Christmas 
day bomber.
    I want to thank all those folks. I am not maligning 
individuals who have issues dealing with their health. But what 
I am saying is that we deal with security, homeland security, 
and obviously these could have resulted in dastardly results.
    I understand by news reports that the restraints that 
JetBlue had on its plane disintegrated, didn't work, broke, and 
they had to actually sit on this individual. There are 
instances where immediate passenger and flight crew response 
was critical to ensuring the security of the aircraft and 
passengers.
    So I really believe this is an issue. Too many of these 
opens us up to others who may speculate what they could do, and 
result in something that none of us would want to see happen. 
We know that mass transit and airlines still remain an 
attractive target for terrorists. Let's not give them the 
suggestion that it is an easy process and an easy action. So I 
am very, very interested in conducting an oversight on cabin 
security.
    I will turn quickly and summarize my remarks on the hearing 
today. I would like to thank the witnesses for joining us. I 
look forward to hearing how TSA determines its staffing level 
needs and where efficiencies that do not compromise security 
may be found. In these tight budgetary times, it is incumbent 
upon all of us to find ways to be more efficient without 
compromising security.
    As the Chairman and other Members are aware, a lapse in our 
transportation security could have devastating consequences. 
Before calling for a reduction in the number of front-line 
employees at TSA, we should ensure that all other means of 
achieving cost efficiencies are explored. We must ask whether 
TSA is wisely investing its resources in new technologies. We 
must ask whether or not encouraging the outsourcing of 
screening operations to contractors at a cost premium is 
fiscally prudent. We must ask whether TSA, as some have 
suggested, is top-heavy and employs excessive headquarters 
staff.
    I am pleased that the chief financial officer for TSA is 
here today to answer questions about how TSA's headquarters is 
organized and staffed. I look forward to hearing from him on 
TSA's on-going headquarters reorganization, how it will reduce 
cost inefficiencies.
    In conclusion, I am also looking forward to hearing from 
the representatives of the Human Capital Office and Office of 
Security Operations on how they have implemented DHS Inspector 
General and GAO recommendations for determining appropriate 
staffing level at airports. Time and again, terrorists have 
targeted our aviation sector.
    So, Mr. Chairman, let me thank you for this and to 
indicate, in conclusion, that we can't have a desire for short-
term savings to cloud our decision-making about the allocation 
of resources for securing our Nation's rail, mass transit, and 
aviation systems. Doing so would be penny-wise and pound-
foolish. As you know, Mr. Chairman, I am committed, as we have 
done, to working with you to ensure that TSA is as effective 
and cost-efficient as possible.
    Mr. Chairman, thank you for your courtesies. I yield back.
    [The statement of Ms. Jackson Lee follows:]
        Prepared Statement of Ranking Member Sheila Jackson Lee
                             March 28, 2012
    Before I begin discussing the topic of today's hearing in depth, I 
would like to start by acknowledging the efforts undertaken by the 
passengers and flight crew yesterday aboard JetBlue Flight 191 from New 
York City to Las Vegas. Their brave and astute course of action 
mitigated what could have been an unforgettable tragedy.
    Unfortunately this is not the first time an incident like this 
threatened passengers in the sky. Just hours after this particular 
incident took place; the media reported that a passenger was arrested 
for being disruptive aboard a flight. Earlier this month passengers 
subdued an American Airlines flight attendant after she became 
disruptive. A couple of years ago, a co-pilot was reportedly removed 
from an Air Canada flight after experiencing mental problems.
    And as we all recall, on December 25, 2009, passengers subdued the 
Christmas day bomber. These are instances where immediate passenger and 
flight crew response was critical to ensuring the security of the 
aircraft and its passengers.
    I look forward to working with you, Mr. Chairman, to ensure that we 
conduct oversight of in cabin security.
    Turning to the hearing today, I would like thank the witnesses for 
joining us. I look forward to hearing how TSA determines its staffing 
level needs and where efficiencies that do not compromise security may 
be found. In these tight budgetary times, it is incumbent upon all of 
us to find ways to be more efficient without compromising security.
    As the Chairman and other Members are aware, a lapse in our 
transportation security could have devastating consequences. Before 
calling for a reduction in the number of front-line employees at TSA, 
we should ensure that all other means of achieving cost efficiencies 
are explored.
    We must ask whether TSA is wisely investing its resources in new 
technologies. We must ask whether encouraging the outsourcing of 
screening operations to contractors at a cost premium is fiscally 
prudent.
    And we must ask whether TSA, as some have suggested, is top-heavy 
and employs excessive headquarters staff. I am pleased that the chief 
financial officer for TSA is here today to answer questions about how 
TSA's headquarters is organized and staffed. I look forward to hearing 
from him on how TSA's on-going headquarters re-organization will reduce 
costs and create efficiencies, if at all.
    I am also looking forward to hearing from the representatives from 
the Human Capital Office and Office of Security Operations on how they 
have implemented DHS inspector general and GAO recommendations for 
determining appropriate staffing levels at airports.
    Time and again, terrorists have targeted our aviation sector. We 
must not allow the desire for short-term savings to cloud our decision 
making about the allocation of resources for securing our Nation's 
rail, mass transit, and aviation systems.
    Doing so would be penny-wise and pound-foolish.
    As you know Mr. Chairman, I am committed to working with you to 
ensure TSA is as effective and cost-efficient as possible.

    Mr. Rogers. I thank the gentlelady.
    Other Members are reminded that they may submit statements 
for the record as well.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             March 28, 2012
    Ensuring the security of our Nation's transportation systems is a 
vital Federal responsibility--a responsibility that the Members of this 
committee take seriously.
    Unfortunately, other committees continue to attempt to encroach on 
this committee's jurisdiction over the Transportation Security 
Administration. Those committees have gone so far as including 
provisions regarding TSA's operations within legislation such as the 
FAA Re-Authorization Act.
    As the authorizing committee for TSA, we have the responsibility of 
ensuring that taxpayer funds for transportation security are used 
wisely.
    Accordingly, a review of TSA staffing levels is an appropriate area 
to explore and this is the appropriate committee to explore it.
    However, I find the Majority's focus on whether TSA's front-line 
workforce is the right size inconsistent with their calls to privatize 
screeners.
    According to TSA, contracting out screening operations to private 
screening companies costs taxpayers 3 to 9 percent more than if the 
entire system was Federalized.
    We should consider ``right-sizing'' TSA's front-line workforce by 
in-sourcing screening operations and saving taxpayer dollars.
    Additionally, taxpayers would be well-served if we required TSA to 
provide scientific validation of programs before they are expanded.
    According to GAO, TSA has yet to scientifically validate the 
Screening Passengers by Observational Technique program.
    Despite the lack of scientific validation or evidence of 
effectiveness, this program--known as SPOT--has been expanded Nation-
wide.
    We have spent $800 million dollars on this unproven program since 
2007.
    I still think that $800 million is a great deal of money.
    I look forward to hearing from Mr. McLaughlin, the Assistant 
Administrator for Security Operations, on why Congress should continue 
to provide support for this program.
    I am also interested in hearing from Mr. Nicholson on how the on-
going headquarters re-organization at TSA will produce savings.
    Without creating savings and operational improvements, this 
reorganization will simply move around people without achieving a 
purpose.
    We cannot focus on moving boxes on an organization chart when 
terrorists still seek to do us harm.
    Before yielding back, I would point out that the TSA Authorization 
bill introduced by the Chairman and considered by this subcommittee 
considered last September, contains a provision that would require TSA 
to develop a plan to reduce its workforce by 5 percent by the end of 
fiscal year 2013.
    I look forward to hearing from the witnesses on the feasibility of 
achieving such reductions without compromising security.
    Additionally, any light the Chairman may be able to shed on when 
that legislation may be considered by the full committee would be 
appreciated.

    Mr. Rogers. We have a great panel today.
    We first have Mr. David Nicholson, who is the Assistant 
Administrator for Finance and Administration and the Chief 
Financial Officer of TSA. Before coming to TSA, Mr. Nicholson 
served as the resource director for the Under Secretary of 
Border and Transportation Security at DHS. Prior to joining the 
Department, Mr. Nicholson worked in the private sector as chief 
strategic analyst with Soza & Company. Additionally, from 1973 
to 2001, Mr. Nicholson served in the U.S. Coast Guard, 
attaining the rank of rear admiral. During his career at the 
Coast Guard, Mr. Nicholson commanded three cutters and served 
as a squadron commander for joint U.S. and international 
operations.
    Next, we have Mr. Christopher McLaughlin, who is the 
Assistant Administrator for Security Operations at TSA. Prior 
to his appointment to the position, Mr. McLaughlin was Federal 
security director at Denver International and Fort Collins-
Loveland Airports. Before joining TSA in 2009, Mr. McLaughlin 
was a senior director and director of station operations with 
Frontier Airlines.
    We also have Mr. Sean Byrne, who was named the Assistant 
Administrator for Human Capital for TSA in December 2010. Mr. 
Byrne joined TSA after a distinguished 36-year career in the 
U.S. Army. He retired as a major general, most recently serving 
as the commanding general of the Army Human Resources Command 
at Fort Knox, Kentucky. Mr. Byrne's military service included 
five command postings, both international and National 
locations, and staff assignments at the Pentagon and White 
House, where he served as the Vice President's military 
assistant and later as the President's military aide.
    Finally, we have Mr. James Duncan, who was appointed to 
Assistant Administrator for TSA's Office of Professional 
Responsibility in 2011. Mr. Duncan has more than 16 years of 
experience supervising and handling employee misconduct cases 
at the Office of Professional Responsibility in the Department 
of Justice. He served as the associate counsel of that office 
until 2003 and was responsible for hundreds of investigations 
involving DOJ employees. While at DOJ, Mr. Duncan also served 
as a senior assistant counsel, assistant counsel, and special 
assistant to the U.S. attorney in the Eastern Division of 
Virginia.
    So I want to thank all of you for being here.
    At this time, the Chairman will recognize Mr. Nicholson for 
his opening statement of 5 minutes to summarize your testimony.

    STATEMENT OF REAR ADMIRAL DAVID NICHOLSON (USCG-RET.), 
 ASSISTANT ADMINISTRATOR FOR FINANCE AND ADMINISTRATION, CHIEF 
   FINANCIAL OFFICER, TRANSPORTATION SECURITY ADMINISTRATION

    Admiral Nicholson. Good afternoon, Chairman Rogers, Ranking 
Member Jackson Lee, and distinguished Members of the 
subcommittee. Thank you for the opportunity to testify about 
the Transportation Security Administration's workforce- and 
resource-related issues.
    In February 2002, TSA had less than 50 employees. By 
November, it had over 56,000. Since its first year of 
existence, TSA has had a large workforce dominated by 
transportation security officers [TSOs]. Over the years, the 
composition and number of the TSOs has changed considerably, 
and today we have nearly 51,700 officers, of which about 25 
percent are part-time.
    Not counting the Federal Air Marshal Service, we have about 
62,000 employees, and their work has likewise changed. The 
nature of our work has driven the changes. TSA employs risk-
based, intelligence-driven operations to prevent terrorist 
attacks and reduce the vulnerability of the Nation's 
transportation system to terrorism and to provide the most 
effective security in the most efficient manner.
    We continue to evolve our security approach by examining 
the procedures and technologies we use and how the screening is 
conducted. Today, TSA conducts security operations in about 450 
airports divided into 6 regions and 26 Federal Air Marshal 
offices. We have a 724 National operations center and two 
vetting centers, with credentialing and enrollment centers 
throughout the country. We have a systems integration facility 
and two supply and logistics facilities and our Federal Air 
Marshal Training Center. Our headquarters is located in 
Arlington, Virginia.
    We have nearly 16,000 pieces of checkpoint and baggage-
screening equipment at our airports. Our 37 VIPR teams provide 
a deployable capability ready to respond to intelligence and 
provide search capability for protecting or restoring the 
transportation security.
    Our international programs: We have 29 TSARs in 19 
countries responding to 100 international governments. We have 
920 canine teams and law enforcement agreements with over 300 
local law enforcement authorities.
    I view our workforce in five large categories. We have a 
security inspector force of over 2,000. Our airport operational 
command, control, and support personnel total about 3,000. We 
have our Federal Air Marshal Service. We have about 4,500 
operational support personnel, including about 2,800 which I 
associate with the traditional portfolio of agency headquarters 
duties.
    As I mentioned at the start of my remarks, our TSOs and 
about 1,200 TSO managers have experienced substantial change 
during our brief history. In 2005, we had 45,000 TSO FTEs 
conducting security operations, focused on the basic duties of 
screening people at the checkpoints and screening bags. We had 
no additional layers, such as travel-document checkers TSO is 
devoting to pushing security out from the checkpoint and to 
bomb-appraisal officers. We had a few BDOs in a prototype 
program. There was no career progression, and we were suffering 
from high attrition.
    In 2007, our funded TSOs dropped to 42,700 FTEs. By 2010, 
we had 43,800 TSO FTEs, or 1,200 below our fiscal year 2005 
level. At the same time, with the support of Congress, we 
restructured our TSO workforce. We took about 2,500 FTE savings 
related to EDS in-line systems, applied 2,000 FTEs gained 
through efficiency initiatives, and received funding for over 
2,400 new FTEs.
    These resources resulted in new security layers, closing 
vulnerabilities, and evolving our security workforce. Recently, 
the adjustments to the TSO levels in fiscal year 2011 and 
fiscal year 2012 are mostly linked to the introduction of our 
advanced imaging technology.
    Similar to the adjustments in our TSO workforce, we have 
emphasized other security programs, such as air cargo, 
inspections, international programs, vetting, credentialing and 
intelligence, canine programs, and screening technology 
investments. Most recently, under TSO's risk-based security 
philosophy, you have heard of pilot programs such as TSA 
PreCheck, Crew Pass, screening procedures for children under 
12, and our new pilot for screening people over 75.
    I look forward to answering your questions on the evolution 
of our security programs and workforce. Thank you.
    Mr. Rogers. Thank you, Mr. Nicholson.
    The Chairman now recognizes Mr. McLaughlin for his open 
statement.

      STATEMENT OF CHRISTOPHER L. MC LAUGHLIN, ASSISTANT 
ADMINISTRATOR FOR SECURITY OPERATIONS, TRANSPORTATION SECURITY 
                         ADMINISTRATION

    Mr. McLaughlin. Good afternoon, Chairman Rogers, Ranking 
Member Jackson Lee, and distinguished Members of the 
subcommittee. Thank you for the opportunity to testify today.
    Both in the field and at headquarters, TSA's workforce is 
vigilant in strengthening the security of our Nation's vast 
transportation networks. Our goal at all times is to stay ahead 
of evolving terrorist threats while protecting privacy and 
facilitating the travel and flow of people and commerce.
    TSA's workforce responsibilities include security screening 
of passengers and baggage at 450 airports in the United States, 
facilitating air travel for 1.8 million people per day. We also 
conduct inspections and enforcement activities for security 
regulation compliance at airports, cargo, and other 
transportation facilities throughout the United States and at 
last points of departure internationally.
    TSA is committed to improving transportation security in 
the most cost-effective manner possible. Last fall, my office 
redesigned our field oversight structure by consolidating TSA's 
12 area directors into 6 regional directors with broad 
management and oversight responsibility over TSA's security 
operations across our Nation. TSA's new regional structure is 
designed to more effectively ensure accountability for TSA's 
operational performance and drive uniformity and consistency in 
executing the agency's strategic priorities.
    Through advancements in workforce efficiency, TSA has also 
accommodated the increased workload resulting from airline 
checked baggage fees; the restrictions on liquids, aerosols, 
and gels we implemented to counter a known terrorist threat; 
and a significant increase in electronics carried by 
passengers.
    We are also re-examining the Screening Partnership Program 
[SPP] through the lens of the new requirements in the FAA 
Modernization Reform Act of 2012. Last Thursday, TSA released a 
new SPP application on our public website which incorporates 
the new language from the FAA legislation.
    Whether at an SPP or a Federal airport, it is our people 
who determine the success of TSA's operations, and an effective 
workforce must be engaged and properly trained. This year, TSA 
began teaching a tactical communications course for our front-
line workforce. This training focuses on active listening, 
empathy, and verbal communication techniques and will be 
complete by the end of 2012.
    We also recognize that, in order to be successful, our 
front-line officers need real-time information and engagement. 
Our management teams engage with our workforce through shift 
briefings several times a day to share timely and critical 
operational information. TSA's field intelligence officers also 
provide timely, pertinent, and responsive intelligence support 
to our Federal security directors and coordination centers. 
Currently, more than 8,000 of our officers, supervisors, and 
security managers have a security clearance.
    Our new field oversight structure and workforce engagement 
initiatives are some of the key aspects of TSA's security 
framework that provide part of the backbone for our overall 
risk-based security strategy. This strategy demonstrates our 
commitment to move away from a one-size-fits-all security 
model. While this approach was necessary after 9/11 and has 
been effective over the past decade, key enablers now allow TSA 
to move toward a more intuitive solution.
    Perhaps the most widely-known RBS initiative is TSA 
PreCheck. To date, approximately 600,000 passengers have 
experienced expedited screening through PreCheck. By the end of 
2012, we expect to offer passengers in 35 of our Nation's 
busiest airports the benefits of this program. In addition to 
eligible frequent fliers and members of CBP's Trusted Traveler 
Programs, we just expanded PreCheck to include active-duty U.S. 
military traveling out of Reagan National Airport.
    In addition to PreCheck, last fall we implemented new 
screening procedures for children 12 and under, allowing them 
to leave their shoes on and go through a less-intrusive 
security screening process. Just last week, at a few airports, 
we began testing similarly modified procedures for passengers 
75 and older. We are also supporting efforts to test identity-
based screening for airline pilots. So far, over 470,000 
uniformed pilots have cleared security through the Known 
Crewmember program.
    These initiatives have allowed us to expedite the screening 
process for children, our military, many frequent fliers, and 
now, in testing, the elderly. They have resulted in fewer 
divestiture requirements and a significant reduction in pat-
downs while allowing us more time to focus on travelers we 
believe are more likely to pose a risk to the transportation 
network, including those on a terrorist watch list.
    None of this would be possible without the people who 
implement these programs. Whether it is for business or for 
pleasure, the freedom to travel is fundamental to our way of 
life, and to do so securely is a goal to which everyone at TSA 
is fully committed.
    Thank you for the opportunity to appear before you today. I 
look forward to answering your questions.
    Mr. Rogers. Thank you, Mr. McLaughlin.
    The Chairman now recognizes Mr. Byrne for his opening 
statement.

STATEMENT OF MAJOR GENERAL SEAN J. BYRNE (USA-RET.), ASSISTANT 
   ADMINISTRATOR FOR HUMAN CAPITAL, TRANSPORTATION SECURITY 
                         ADMINISTRATION

    General Byrne. Well, good afternoon, Chairman Rogers, 
Ranking Member Jackson Lee, and other distinguished Members of 
the subcommittee. Thank you for the opportunity to testify 
today about the programs and objectives of the Office of Human 
Capital within the Transportation Security Administration.
    TSA's Office of Human Capital is responsible for providing 
human capital strategies and services to build, develop, and 
sustain a high-performing and diverse TSA workforce tasked with 
protecting the Nation's transportation systems. In my role as 
the Assistant Administrator for the Office of Human Capital, I 
oversee targeted workforce strategies and services that are 
delivered across TSA in recruitment and staffing, compensation 
and benefits, position management, succession planning, and 
employee relations. My office also manages TSA's human capital 
policy agenda and oversight of the Federal human resources 
regulations.
    As was indicated earlier, I joined TSA approximately a 
year-and-a-half ago in my current position, following a career 
with the United States Army.
    The focus of our efforts is to provide the best possible 
support to our 60,000-plus employees and to synchronize our 
efforts and DHS initiatives with Administrator Pistole's vision 
of TSA as a high-performing counterterrorism organization 
focused on developing and deploying risk-based and 
intelligence-driven security initiatives. Actions are taken and 
programs are focused on his three agency-wide priorities: Risk-
based security, workforce engagement, and efficiencies 
throughout the organization.
    Ours is truly a dynamic and diverse workforce. 
Approximately 43 percent of the TSO workforce has at least some 
college education, with 4\1/2\ percent having earned associate 
degrees, 11\1/2\ percent with bachelor's degrees, and 1\1/2\ 
percent with master's, professional, or Ph.D. degrees.
    Additionally, TSA is partnering with local community 
colleges to provide transportation security officers across the 
Nation the opportunity to work toward a TSA certificate of 
achievement in homeland security and, further, to work toward 
an associate degree in homeland security or a related field. 
The objective of this program is to increase the professional 
qualifications and education of the workforce and to invest in 
and further engage the workforce.
    The pilot program was launched in 2008, with the National 
rollout in the fall of 2010. Presently, the program is 
available in all 50 States and is currently at over 80 
airports, with over 70 colleges joining the associate's 
program. We have over 2,700 student participants, and at the 
completion of the current term, over 700 will receive TSA 
certificates of achievement.
    Approximately 23 percent of our workforce are veterans, and 
that number is increasing as we continue to target our 
recruiting efforts, working closely with the DOD, veterans 
groups, and other outside agencies.
    Low attrition rates continue to be a good-news story. 
Overall attrition, including full-time and part-time employees, 
was 7.2 percent in fiscal year 2011. This is a significant 
decrease from 18 percent in fiscal year 2004. The agency is now 
10 years old, and the average TSO has been with TSA nearly 6 
years, with 53\1/2\ percent of them having more than 5 years of 
experience on the job.
    The Office of Human Capital also manages TSA's workmen's 
compensation program. Under this program, the injury case rate 
has been reduced by approximately 20 percent between fiscal 
years 2010 and 2011 and has reduced the injury rate by 5 
percent yearly since 2006. With the reduction of 26 percent of 
workmen's compensation costs since 2006, TSA is leading the 
Government in overall cost reductions.
    TSA is also an agency that listens to its employees. At 
TSA, leadership and employees partner to promote innovative 
workplace policies and practices. We have a very proactive 
National Advisory Council and Diversity Advisory Council, which 
act as advisory groups to our senior management. They are 
comprised of TSA airport front-line employees, supervisors, and 
management. They work in close partnership with senior 
leadership, headquarters staff, airport leadership, and field 
personnel to improve the workplace environment and 
organizational effectiveness by enhancing two-way 
communications, utilizing cooperative problem-solving, and 
fostering innovation. They provide sound ideas and 
recommendations that are acted on by the senior leadership.
    In closing, I would like to reinforce our priorities for 
the Office of Human Capital: Risk-based security, employee 
engagement, and efficiencies throughout the agency.
    Once again, I would like to thank you for the opportunity 
to testify today, and I look forward to answering your 
questions.
    Mr. Rogers. Thank you, Mr. Byrne.
    The Chairman now recognizes Mr. Duncan for his opening 
statement.

   STATEMENT OF JAMES G. DUNCAN, ASSISTANT ADMINISTRATOR FOR 
     PROFESSIONAL RESPONSIBILITY, TRANSPORTATION SECURITY 
                         ADMINISTRATION

    Mr. Duncan. Good afternoon, Chairman Rogers, Ranking Member 
Jackson Lee, and distinguished Members of the subcommittee. 
Thank you for giving me the opportunity to testify today.
    The Office of Professional Responsibility, or OPR, was 
created to promote consistency, timeliness, and accountability 
into the TSA disciplinary process. OPR is an independent office 
within TSA that reports directly to the Administrator and to 
the Deputy Administrator.
    OPR performs three primary responsibilities within TSA 
through a combination of direct adjudication and oversight.
    First, OPR adjudicates all allegations of misconduct 
involving senior-level employees and law enforcement personal. 
This includes the members of the Transportation Security 
Executive Service, the Federal security directors and their 
leadership at the airports, all employees in the K through M 
pay bands, the transportation security area representatives 
assigned overseas, and our agency's law enforcement employees, 
the Federal Air Marshals.
    OPR officials also review all reports of investigation from 
the Department of Homeland Security's Office of the Inspector 
General, regardless of the pay grade or seniority of the 
employee investigated. OPR reviews the evidence and determines 
whether to bring charges against the employee and what penalty 
is appropriate.
    Second, OPR adjudicates the appeals of adverse actions, 
removals, and suspensions of 14 days or more taken against the 
uniformed workforce. The uniformed workforce includes all 
transportation security officers, or TSOs, lead TSOs, 
supervisory TSOs, and master and expert TSOs assigned as 
behavior detection officers and security training instructors. 
The OPR Appellate Board, a unit within OPR, rules on these 
appeals.
    Third, OPR has review and oversight responsibility over all 
misconduct cases adjudicated in the field by officials outside 
of OPR. Working with Assistant Administrator Byrne at the 
Office of Human Capital, we developed a database which will 
allow OPR and the Office of Human Capital to review all final 
discipline decisions to ensure fairness and consistency across 
the country and throughout the agency.
    OPR has promoted greater consistency and transparency in 
the entire TSA disciplinary system by creating a table of 
offenses and penalties. The table provides ranges of penalties 
for each type of offense and guides the decisions of officials, 
both at OPR and in the field.
    OPR has also worked to promote greater efficiency and 
timeliness for disciplinary actions by introducing specific 
time lines for investigating and for adjudicating allegations 
of misconduct. These innovations have promoted integrity and 
efficiency in the disciplinary system.
    Thank you for the opportunity to testify. I look forward to 
answering any questions you may have.
    [The joint prepared statement of Admiral Nicholson, Mr. 
McLaughlin, General Byrne, and Mr. Duncan follows:]
Prepared Statement of Christopher L. McLaughlin, David Nicholson, Sean 
                     J. Byrne, and James G. Duncan
                             March 28, 2012
    Good morning Chairman Rogers, Ranking Member Jackson Lee, and 
distinguished Members of the subcommittee. Thank you for the 
opportunity to testify today about the Transportation Security 
Administration (TSA) workforce.
    Both in the field and at headquarters, the TSA workforce is 
vigilant in ensuring the security of people and commerce that flow 
through our Nation's vast transportation networks. TSA employs risk-
based, intelligence-driven operations to prevent terrorist attacks and 
to reduce the vulnerability of the Nation's transportation system to 
terrorism. Our goal at all times is to maximize transportation security 
to stay ahead of evolving terrorist threats while protecting privacy 
and facilitating the flow of legitimate travel and commerce. TSA's 
security measures create a multi-layered system of transportation 
security that mitigates risk. We continue to evolve our security 
approach by examining the procedures and technologies we use, how 
specific security procedures are carried out, and how screening is 
conducted.
    The TSA workforce occupies the front-line in executing the agency's 
transportation security responsibilities in support of the Nation's 
counterterrorism efforts. These responsibilities include security 
screening of passengers and baggage at 450 airports in the United 
States that facilitate air travel for 1.8 million people per day; 
vetting more than 14 million passengers and over 13 million 
transportation workers against the terrorist watch list each week; and 
conducting security regulation compliance inspections and enforcement 
activities at airports, for domestic and foreign air carriers, and for 
air cargo screening operations throughout the United States and at last 
point of departure locations internationally.
    TSA also ensures the security of surface transportation operations. 
We have 25 multi-modal Visible Intermodal Prevention and Response 
(VIPR) Teams working in transportation sectors across the country to 
prevent or disrupt potential terrorist planning activities. Since late 
2005, we have conducted over 25,000 VIPR operations, with over 16,300 
occurring in surface modes. And, since 2006, TSA has completed more 
than 230 Baseline Assessments for Security Enhancement for transit, 
which provides a comprehensive assessment of security programs in 
critical transit systems. We are seeing the benefits of how these 
important steps--combined with our well-trained and highly motivated 
workforce and our multiple layers of security including cutting-edge 
technology--keep America safe every day.
    TSA is committed, not only to improving the effectiveness of 
security, but to doing so in the most cost-effective manner possible. 
Through advancements in workforce efficiency, TSA has been able to 
accommodate the increased workload that has accompanied the current 
practice of many airlines to charge fees for all checked baggage, the 
restrictions on liquids, aerosols, and gels we had to implement to 
counter a known terrorist threat, and the screening required for the 
significant increase in the number of laptops carried by passengers. By 
employing smarter security practices in developing and deploying our 
people, processes, and technologies we are delivering more effective 
security in a more efficient manner, and we will continue to do so.
                adopting a risk-based security strategy
    Last fall, TSA began developing a strategy for enhanced use of 
intelligence and other information to enable a more risk-based security 
(RBS) in all facets of transportation, including passenger screening, 
air cargo, and surface transportation. At its core, the concept of RBS 
demonstrates a progression of the work TSA has been doing throughout 
its first decade of service to the American people. RBS is an 
acknowledgment that risk is inherent in virtually everything we do, and 
TSA is not in the business of eliminating all risk associated with 
traveling from point A to point B. Our objective is to mitigate risk in 
a way that effectively balances security measures with privacy, civil 
rights, and civil liberties concerns while both promoting the safe 
movement of people and commerce and guarding against a deliberate 
attack against our transportation systems.
    RBS in the passenger screening context allows our dedicated 
Transportation Security Officers (TSOs) to focus more attention on 
those travelers we believe are more likely to pose a risk to our 
transportation network--including those on the U.S. known or suspected 
terrorist watch list--while providing expedited screening, and perhaps 
a better travel experience, to those we consider pose less risk.
    Through various RBS initiatives, TSA is moving away from a one-
size-fits-all security model and closer to its goal of providing the 
most effective transportation security in the most efficient way 
possible. While a one-size-fits-all approach has been effective over 
the past decade, and was necessary after 9/11, two key enablers--
technology and intelligence--are allowing TSA to move toward a RBS 
model.
                          tsa precheck program
    Perhaps the most widely-known risk-based security enhancement we 
are putting in place is TSA PreCheck<SUP>TM</SUP>. Since first 
implementing this idea last Fall, the program has been expanded to 12 
airports, making it possible for passengers flying from these airports 
to experience expedited security screening through TSA 
PreCheck<SUP>TM</SUP>. The feedback we've been getting is consistently 
positive.
    Under TSA PreCheck<SUP>TM</SUP>, individuals volunteer information 
about themselves prior to flying in order to potentially expedite the 
travel experience. By changing procedures for those travelers we know 
more about, through information they voluntarily provide, and combining 
that information with our multi-layered system of aviation security, 
TSA can better focus our limited resources on higher-risk and unknown 
passengers. This new screening system holds great potential to 
strengthen security while significantly enhancing the travel 
experience, whenever possible, for passengers.
    TSA pre-screens TSA PreCheck<SUP>TM</SUP> passengers each time they 
fly through participating airports. If the indicator embedded in their 
boarding pass reflects eligibility for expedited screening, the 
passenger is able to use the PreCheck<SUP>TM</SUP> lane. Currently, 
eligible participants include certain frequent flyers from American 
Airlines and Delta Air Lines as well as existing members of U.S. 
Customs and Border Protection's trusted traveler programs, such as 
Global Entry, who are U.S. citizens and are flying domestically on 
participating airlines. TSA is actively working with other major air 
carriers such as United Airlines, US Airways, Jet Blue, Hawaiian 
Airlines, and Alaska Airlines to expand both the number of 
participating airlines and the number of airports where expedited 
screening through TSA PreCheck<SUP>TM</SUP> is provided. In February 
2012, Secretary Napolitano and TSA Administrator Pistole announced the 
goal to have TSA PreCheck<SUP>TM</SUP> rolled out and operating at 35 
of the busiest domestic airports by the end of 2012.
    TSA PreCheck<SUP>TM</SUP> travelers are able to divest fewer items, 
which may include leaving on their shoes, jacket, and light outerwear, 
and may enjoy other modifications to the standard screening process. As 
always, TSA will continue to incorporate random and unpredictable 
security measures throughout the security process. At no point are TSA 
PreCheck<SUP>TM</SUP> travelers guaranteed expedited screening.
                   people define programmatic success
    The success of RBS and initiatives like TSA PreCheck<SUP>TM</SUP> 
depend upon people. A dedicated TSA workforce assures the traveling 
public that they are protected by a multi-layered system of 
transportation security that mitigates risk. An effective workforce 
must be properly trained. Good management and decent pay are key 
ingredients in preserving a motivated and skilled workforce. To this 
end, TSA has implemented employee development initiatives like the 
Leaders at Every Level (LEL), through which TSA identifies high-
performing employees and fosters commitments to excellence and 
teamwork, and the Associates Degree Program, which builds morale and 
provides the workforce an opportunity to enhance technical and non-
technical skills through formal training and education programs. The 
implementation of a new four-tier performance management program for 
non-TSOs enables the workforce to actively engage in developing their 
annual performance goals in collaboration with their supervisors, while 
promoting two-way communication between employees and their supervisors 
throughout the performance year. Providing a mechanism to proactively 
identify opportunities to improve their performance has increased 
employee morale.
    Every day, the TSA workforce, including front-line workers and 
managers both in the field and at headquarters, strives to ensure our 
operational planning and decision-making process is timely, efficient, 
well-coordinated, and based on intelligence. Management communicates 
with our front-line officers through shift briefings held several times 
a day.
    We also work to share critical information with key industry 
stakeholders whenever appropriate. Thanks to the effective partnerships 
we've forged with industry stakeholders, with our airline and airport 
partners, and with law enforcement colleagues at every level, TSA has 
achieved a number of significant milestones during its first 10 years 
of service. These include screening 100 percent of all passengers 
flying into, out of, and within the United States for terrorism through 
the Secure Flight program, screening all air cargo transported on 
passenger planes domestically, and working closely with our 
international partners every day to screen 100 percent of high-risk 
inbound cargo on passenger planes. Our goal is that by the end of 2012, 
100 percent of inbound cargo on passenger aircraft must be screened 
according to TSA-approved protocols. We are also improving aviation 
security through innovative technology that provides advanced baggage 
screening for explosives.
                               conclusion
    As we review and evaluate the effectiveness of TSA's aviation 
security enhancements, we must always be cognizant of the fact that 
these enhancements are only as good as the people who operate, staff, 
and manage them. As we strive to continue strengthening transportation 
security and improving, whenever possible the overall travel experience 
for all Americans, we must always remember that our success is defined 
in the final analysis by our people. Whether it is for business or for 
pleasure, the freedom to travel from place to place is fundamental to 
our way of life, and to do so securely is a goal to which everyone at 
TSA is fully committed. Thank you for the opportunity to appear before 
you today. We will be happy to address any questions you may have.

    Mr. Rogers. Great. I thank all of you. Those were very 
helpful and informative.
    I now recognize myself for the opening questions.
    Mr. McLaughlin, since 2007, the number of airport screeners 
has increased by more than 5,000 people, an 11 percent 
increase. This is striking to me because, during the same 
period, we saw 40 million fewer passengers.
    How do you reconcile these numbers, particularly given the 
testimony we just had about how you all have gone to a more 
risk-based system? We now have in-line baggage screening. We 
have put a lot of technology in place. It would seem to me 
that, with this smarter approach and the aid of this new 
technology and 40 million fewer passengers, you would need 
fewer workers.
    So how do you reconcile those?
    Mr. McLaughlin. Thank you, sir.
    So the TSA is committed to providing the most effective 
security in the most efficient way. Over the last couple 
months, I would just say, since the fall of this year, we have 
really begun moving forward with PreCheck, as you suggested, 
which we believe, as we continue to work with that program, it 
is beginning to show some efficiencies that we believe, as the 
program grows, if it grows, and the population base grows, will 
provide some of the efficiencies that you are looking for.
    Since 2007, we have achieved some savings with our in-line 
baggage system. But we have also been required to layer some of 
those savings back into our security for reasons such as the 
2006 liquids plot out of England, which changed our procedures 
in the United States. We have increased the BDO program in that 
time. Then more recently, in response to the Christmas day 2009 
attack with Abdulmutallab, we have deployed a large number of 
AITs across the country as well.
    Mr. Rogers. Yeah, but, see, I would think those things 
would aid your efficiencies.
    I would draw your attention to the graph up on the board. 
You were all provided with these before we left for our last 
series of votes. You see, particularly in years 2009, 2010, and 
2011, a dramatic drop-off in passenger activity, but you can 
see in the red line how spending has continued to stay way 
above, at levels of passengers from 2005 until the economy went 
south in 2008.
    You know, it is hard for me to defend that with taxpayers 
back home that we are asking to take cuts in a variety of 
programs that matter to them and they look at that and say, 
``How do you explain it, Mike?'', because I can't. So what you 
just said does not reconcile those numbers.
    Can anybody else take a shot at it?
    Admiral Nicholson. Yes, sir, I will give it a try.
    As Mr. McLaughlin mentioned, in the series of events that 
took place, first with the 2006 liquids plot, then with an 
intelligence-driven increase in our TSO security workforce in 
2008 related to improvised explosive devices and the need to 
improve our detection capabilities and to look for different 
methods other than being what we used to refer to as ``chained 
to the checkpoint'' and not thinking of different ways and 
different approaches, drove an increase to provide an 
enhancement in security both in terms of the layers and number 
of people that we had devoted to that. We had the technology, 
but the increase in the behavior detection office was more to 
get toward an assessment of intent by some individuals. So that 
represented the growth in those programs.
    More recently, the AIT, from the beginning, the increase in 
staffing was realized with AIT. For the first 1,000 units that 
we had, to get the full benefit of the capabilities of that 
technology and be able to use it and apply it to enhance the 
security required a staff increase of five people per machine.
    Mr. Rogers. See, I have never liked those machines, by the 
way. But we were told that it was going to decrease the staff 
requirements when we paid that huge amount of money per machine 
for those. In fact, it has gone the other way.
    Admiral Nicholson. Yes, sir, I can tell you that our budget 
presentation tried to make that very clear, that each machine 
would come with a cost of training and TSO workforce for the 
first 1,000 of five people. That was not five people per 
machine that you would add to a checkpoint, but those five 
people would be essentially one person per shift, with a 7-day-
a-week operation and about two-and-a-half shifts a day. So that 
is how you got that number.
    But to realize the capability of the machine, we knew that 
there was going to be that additional cost associated with 
people to derive the benefit.
    Mr. Rogers. All right.
    Mr. Byrne, do you want to take a shot at it? Your 
microphone needs to be turned on.
    General Byrne. I would have to enforce Mr. Nicholson's 
comments. But it has been basically, as missions have expanded, 
there have been some increases. I think that in the long run, 
as we go through the risk-based security program and the 
PreCheck and all other programs that we have on-going, we will 
be able to harvest savings. But we have not yet seen all of 
those savings.
    Mr. Rogers. So if, over the next 2 years, we see passenger 
travel drop another 50 million passengers, you don't think we 
are going to see a corresponding reduction in our cost per 
screening.
    General Byrne. Sir, I really can't address the specifics on 
that. I have not seen the figures that have indicated that the 
passenger travel will drop anywhere near that level. I had 
heard that the expectation is that, if anything, passenger 
travel would increase in the future.
    Mr. Rogers. I hope the economy turns around so they start 
traveling.
    My time has expired. I recognize my colleague from 
Illinois, Mr. Davis, for any questions he may have.
    Mr. Davis. Thank you very much, Mr. Chairman.
    I want to thank all of the witnesses for being here.
    Mr. Byrne, let me ask you, TSA has consistently ranked as 
one of the least hospitable work environments, not only within 
DHS, but within the Federal Government. It is clear at this 
point that whatever has been done in the past to increase 
morale at TSA has failed. What approaches do you intend to take 
that you think will help the situation?
    General Byrne. Sir, we have a number of initiatives on-
going. Quite honestly, we pay very close attention to those 
survey results. But I will tell you up front, the surveys are 
very interesting in the sense that they ask very specific 
questions on pay and subjective questions on leadership, but 
one thing they don't really talk about is: What is the quality 
of morale of the people that are working? What do they think 
about their mission? How are they excited about what they are 
doing? When you talk to our employees, our TSOs, you see a 
different result.
    I will have to acknowledge that in some places our working 
conditions may not be the best, because in some cases we are 
caught up in whatever the conditions are available at the 
airports, which may not be the most positive. Break areas may 
not be close to where the screeners are working, and situations 
such as that.
    I will tell you some of the initiatives we have on-going. 
We have recently stood up a directorate, the Training and 
Workforce Engagement, with an assistant administrator of 
equivalent rank of the four of us sitting here. His focus is on 
standardizing training throughout, standardizing leader 
development throughout. I think that is going to make a major 
difference.
    Additionally, he has oversight and will have oversight of 
internal communications, where we are going to do a better job 
of talking to the employees, informing the employees of what is 
going on.
    In my initial comments, I talked about the National 
Advisory Council and the Diversity Advisory Council. Those are 
two key groups that are giving the senior leadership advice. 
They are offering dialogue, telling us some things they see in 
the field that we may not be picking up on. They are also 
taking a look at programs that we have on-going, assisting Mr. 
McLaughlin and his group with some of the risk-based security 
procedures at the checklines to make things more efficient.
    We are a learning organization. But believe you me, we are 
paying attention, and we are actively promoting programs that 
will change the perspective and give our employees better 
workforce, better workplace conditions.
    Mr. Davis. Of course, last year, last June, the TSOs voted 
to be represented by the American Federation of Government 
Employees. How do you view working with the union? I mean, how 
do you see the union fitting into this?
    General Byrne. Well, I fully support the administrator's 
directive and decision to offer all our TSOs the opportunity 
for union representation. I believe working with the AFGE will 
offer us a great opportunity. It will offer outside eyes to 
give us advice, to help us have consistency through the force.
    I think there are a lot of plusses. Naturally, we have to 
be very careful. The administrator gave his directive where 
there are some issues that we are not willing to bargain over, 
those being primarily in the security arena.
    But I think, working together with the AFGE--and, you know, 
we are currently involved in the collective bargaining process 
right now; we do not have a contract--but working with the AFGE 
and President Gage I think offers a lot of great opportunities.
    Mr. Davis. Have you been directly involved in those 
negotiations?
    General Byrne. I have an office that works for me called 
the Partnership Office. They are basically the liaison. I am 
not a member of the collective bargaining team.
    Mr. Davis. Do you have any idea about how far away we might 
be to a contract?
    General Byrne. Well, the guidance that--we went through the 
initial stages, the ground rules. We got the ground rules 
resolved. Basically, the contract is supposed to be resolved 
within 90 days, which would be the 9th of May. However, there 
could be an extension past that for another 30 days, which 
would take us into the June time frame.
    They are working very hard. We have a number of issues that 
we need to work our way through. We at TSA, I think, have a 
very dynamic team, headed by an FSD out of Detroit who has 
previous corporate experience involvement with the unions. We 
have great representation from the staff and from the field. I 
think things are going positive.
    But they are still in the collective bargaining stages. I 
have high hopes that we will make the dates that I gave you 
just a few moments ago.
    Mr. Davis. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Rogers. I thank the gentleman.
    The Chairman now recognizes my friend and colleague from 
Minnesota, Mr. Cravaack, for 5 minutes.
    Mr. Cravaack. Thank you, Mr. Chairman. I appreciate the 
time.
    Thank you, gentlemen, for being here today.
    Mr. McLaughlin, thank you for coming back. I have a couple 
more questions. Last Monday, I asked you why DHS was proposing 
to cut the FFDO program, and you said, ``I can't really discuss 
the topic because it is really outside my area at the TSA.''
    Now, I agree with you that the FFDO program should be 
separately managed. I actually agree with you on that. I would 
like to see it actually in the Department of Justice. But the 
fact is, right now the program is housed at TSA and under the 
Federal Air Marshals, which is under your purview.
    So I will ask you again, why are you proposing to cut a 
program that you now say is your responsibility?
    Mr. McLaughlin. Thank you, sir. Just for clarification, my 
office is the Office of Security Operations, which has 
oversight for our operations on the ground across the country. 
The Federal Air Marshal Service is a separate directorate.
    Mr. Cravaack. So you have nothing to do with them 
whatsoever?
    Mr. McLaughlin. I have no jurisdiction over the FFD program 
or over the Federal Air Marshals service.
    Mr. Cravaack. Okay. That will be a conversation for a 
different panel then. So I appreciate that.
    Let me ask you this question, though. I just got an earful 
from a constituent going through TSA. They took her bag from 
her, separated her from the bag, put it on a counter, and she 
had to stand over in a corner for 5 minutes. She finally had to 
grab a TSA and say: Why am I here? They said: Well, your bag is 
being searched. Why is my bag being searched? They refused to 
answer her questions.
    Now, that is the type of--and then made her stand there 
some more, until finally she left again to go find a 
supervisor, someone with, she said, more stripes on their 
shoulder, and said: Why am I standing here?
    Okay. So my question to you is: What is your instruction to 
your people? You know, before a police officer makes an arrest 
or pats a person down, they are telling them, you know, hey, 
patting you down for your safety, my safety, that kind of 
thing. Now, how do you respond to that?
    Mr. McLaughlin. First of all, I regret the experience that 
the customer had. At TSA, one of the things that we really do 
focus on with our officers is the advisements that they are to 
make before they engage in any security activity.
    As I stated during my opening comment, one of the things 
that we are actively involved with this year is a specialized 
training that has been developed that focuses specifically on 
active listening skills, on empathy, on verbal communication 
skills that our officers can use. I think I testified to this 
on Monday, but I would say that some of the feedback that we 
are getting from officers is truly that it is helping them be 
better at that kind of soft skill, the interaction with 
customers as they come through.
    So I certainly hope over the next 12 months as we roll--or 
I should say about 7 more months, 8 more months, as we roll 
this program out, that we will continue to see progress in that 
area.
    Mr. Cravaack. How do we--I have another big question, but 
how do we empower a passenger if they feel that they have been 
treated unfairly? You know, because, basically, you surrender 
certain personal rights when you go through the TSA line. If a 
passenger feels that they have been treated unfairly, what do 
they do?
    Mr. McLaughlin. Passengers have a number of avenues 
available to them. I mean, my personal hope, as someone who 
wants to see people's travel facilitated at the checkpoint, is 
that if they have an experience that doesn't sit well with 
them, that they would immediately, as this individual did, 
engage a supervisor, and if that is not successful, a manager 
to try to resolve that situation in real time.
    If that is not possible, of course we do have, either 
through our website or through an 800 number, the opportunity 
for the customer to report their experience so that we can 
follow up. As a former FSD, I can tell you that we do actively 
follow up to ensure that our officers get better and better at 
engaging the public.
    Mr. Cravaack. I would appreciate that, because I hate it 
when they call their Congressman. You know, if it gets to my 
level, it is like, wow, you know----
    Mr. McLaughlin. We would certainly rather----
    Mr. Cravaack [continuing]. That person is pretty upset.
    Mr. McLaughlin. Yeah.
    Mr. Cravaack. Yeah.
    Okay. Well, if we could have--oh, the graph is up there. 
Okay.
    According to what TSA provided to the committee, since 2005 
the number of entry-level TSO band D and E, I believe they are 
called, has declined by 2,920 people. However, during the same 
time period, the number of managerial and supervisory and lead 
TSOs, bands F, G, H, and I, has increased by 2,051.
    What is the reason for the huge shift from the entry-level, 
which, you know, boots on the ground, front-line troops, 
supposed to be, to the screeners in the management position? 
Can you tell me that?
    Mr. McLaughlin. Sure. First I would suggest, just from the 
graph, at the F band, that is a lead TSO, who I would suggest 
truly still represents that front-line workforce. They are 
actively engaged in screening processes as they go through 
their day.
    As you look at the evolution--and I think your questions 
are actually tied together--one of the things that a new 
organization has to do is define that right level of leadership 
of supervision to ensure that the front-line workforce is 
properly engaged and motivated to be successful.
    I can tell you that today at TSA and over the last couple 
years we have a very robust model that includes direct 
supervision ratios, both at the supervisor level and the 
management level, that, from my experience in private industry 
or else, is competitive with any other industry that I have 
been involved with.
    Mr. Cravaack. Okay.
    Well, I see my time has expired, and I will yield back for 
now.
    Mr. Rogers. I thank the gentleman.
    The Chairman now recognizes my colleague from Louisiana, 
Mr. Richmond, for 5 minutes.
    Mr. Richmond. I will pick up a little bit from where my 
colleague, Mr. Cravaack, left off. But is there signage or 
postings that informs passengers of a hotline or a 1-800 number 
that you can call when there is an issue?
    Mr. McLaughlin. Yeah, so we have signage all throughout the 
airport, in terms of what the procedures that we are going to 
conduct, you know, as the screening force, and also what 
customers are entitled to do and what their, sort of, rights 
are. We have a very active and robust website, TSA.gov, that 
folks can access as well.
    Mr. Richmond. My experience is that, as I travel, that the 
longer the line is to get to the actual checkpoint, the more 
aggravated in every little thing that happens to them once they 
make it to that checkpoint, becomes more of a hassle because of 
either inadequate staffing or the fact that they have waited in 
line for 30 minutes just to get to the security checkpoint.
    So is there a protocol on how long the wait should be, how 
many actual screeners you have at any particular time?
    Mr. McLaughlin. Certainly. We model our staff, our 
screening staff, the same way that I used to do it in the 
airline industry, which would be based on peak arrival curves 
of customers. As long as those curves that we expect show up 
when they are supposed to, we do very well at managing the line 
waits through----
    Mr. Richmond. What happens when it doesn't? Do they have 
the flexibility to call, let's say, another gate, another 
terminal to say, hey, we are swamped over here, can you come 
help?
    Mr. McLaughlin. Absolutely. Again, as we evolve as an 
agency, and through the use of our coordination centers and 
other oversight, where we have multiple terminals, if we have 
an issue in one terminal, we on a daily basis move resources 
from one location to another to assist in that curve to get 
those folks processed.
    I would tell you that over the course of this year, similar 
to past years, a full 99\1/2\ percent of all customers make it 
through TSA checkpoints in less than 20 minutes.
    Mr. Richmond. Well, maybe I am just unfortunate at not 
being in that 99 percent sometimes.
    But I will tell you some good news. That is, through my 
experience the other day traveling through the airport--and I 
normally don't dress up to travel through the airport; I 
certainly don't wear my Member pin. But I was stopped, and they 
went through my bags. The guy was--I was as aggravated as I 
could be when I got stopped. But he was so nice and explained 
so much, he actually made me feel bad for being upset when I 
didn't take the liquids out of my bag.
    So whatever training you all are doing, I think it is 
working, because I will tell you, I left the gate laughing at 
the fact that I was aggravated and this young kid was just so 
nice and ignored my aggravation so well. So, the more we can do 
that, I think the better it is.
    I thought we passed something out of here, an amendment, 
last year that said that we would start looking at the goal of 
reducing the need for people to remove their shoes and some of 
the other burdens that come through flying. How are we and 
where are we on that?
    Mr. McLaughlin. You are referring to some of our risk-based 
security initiatives, and these are things that we are very 
proud of at TSA.
    As one example, our TSA PreCheck, I referred to it earlier, 
but so far some 600,000 customers have gone through TSA 
PreCheck. For those enrolled, what PreCheck allows you to do is 
leave your light outer garment on, leave your belt on, your 
shoes on, your laptop and your 3-1-1 liquids inside your bag. 
So it is a great experience.
    For children 12 and under, last fall we changed a policy 
allowing them to leave their shoes on. We modified another 
procedure that results in a significant reduction in pat-downs 
for children.
    Just as recently as last Monday, we have instituted in a 
pilot phase a very similar program to what we are doing with 
children, for individuals age 75 and older that we also--first 
of all, it will allow them to leave their shoes on, and we 
expect will also result in a significant reduction in pat-
downs.
    Just last Monday, we rolled out--or we included active-duty 
U.S. military traveling through Reagan National Airport into 
the PreCheck population of people. If memory serves, in the 
week that we have done this, some, you know, a thousand people 
or so have traveled through. Again, as we learn lessons from 
that and we make sure that we have everything right, we look 
forward to rolling that program out Nation-wide as well.
    Mr. Richmond. Thank you for your time.
    Mr. Chairman, I yield back.
    Mr. Rogers. Thank you. I would say that I don't know if you 
fly through Atlanta, Mr. Richmond, but I do, and they have 
PreCheck there. It is wonderful.
    Mr. Richmond. I just flew out of Miami this weekend, and 
they had PreCheck, but I was not a PreCheck person.
    Mr. Rogers. You need to talk to Administrator Pistole about 
fixing that.
    Mr. Richmond. So the only thing that the assistant leader, 
Jim Clyburn, and I could do was watch everyone else go through 
the PreCheck line.
    Mr. Rogers. I bet if you all talk to Administrator Pistole, 
he will take care of that problem for you. It is a much more 
pleasant experience. It, frankly, is great for the passengers 
who don't qualify, because it gets us out of their line so they 
can go through more quickly.
    All right. I wanted to ask a few more questions. We will do 
one more round.
    Ms. Jackson Lee. Did you forget me?
    Mr. Rogers. Oh, I am sorry. You have joined us. I recognize 
the Ranking Member.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. That is 
okay. Thank you for your courtesies again.
    Let me just indicate that I think your duties and 
responsibilities, in light of this changing climate that we 
live in, this world of unknowns with respect to terrorism, 
continues to change--with technology, with PreCheck, so you are 
helping more citizens and others who meet those qualifications; 
with the various nuances that come with the new credentialing 
for our airplane personnel, first pilots, then of course the 
flight attendants, which is being discussed, flight deck 
officers--constantly changing in terms of the needs and the 
sophistication of TSO officers.
    In addition, as I just mentioned, this whole issue of cabin 
security. There may be some extra responsibilities that will 
come about from some of these seemingly--incidents that are 
happening more often than they should.
    So let me proceed with some questions. I would like to, Mr. 
Chairman, ask unanimous consent to place in the record a March 
26, 2012, letter that I wrote to the Comptroller General 
regarding issues of staffing.
    Mr. Rogers. Without objection, so ordered.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    [The information follows:]
             Letter From Ranking Member Sheila Jackson Lee
                                    March 26, 2012.
The Honorable Gene L. Dodaro,
Comptroller General, U.S. Accountability Office, 441 G Street, NW 
        Washington, DC 20548.
    Dear Mr. Dodaro: We are willing to request an audit on the 
utilization of Advanced Imaging Technology by the Transportation 
Security Administration (TSA). The Government Accountability Office 
(GAO), at our request, most recently identified a number of issues with 
the utilization of Advanced Imaging Technology (AIT). Furthermore, GAO 
identified a plan for TSA actions to improve current AIT utilization 
across our airports. We remain interested in learning more about TSA 
efforts to address GAO's plan for improved utilization of AIT.
    Following the attempted terrorist attack on December 25, 2009, and 
the security breaches at Newark and JFK airports in 2010, it became 
clear to the public and Congress that vulnerabilities at airports 
continue to exist and that improved security policies, procedures, and 
technology are required.
    Following a preliminary review of the attempted attack on Christmas 
day, the President directed the Department to pursue ``enhanced 
screening technologies, protocols, and procedures, especially in regard 
to aviation and other transportation sectors.'' Democratic Members of 
the committee repeatedly requested, in public and private settings, 
that DHS ensure that the President's mandate be carried out in a 
successful and efficient manner.
    According to a TSA deployment plan, throughout January 2009 and 
December 2010, TSA deployed more than 400 AIT machines to airports 
across the Nation. The majority of AIT purchases were procured with the 
use of American Recovery and Reinvestment Act funds. Today, there are 
more than 640 AIT machines deployed across approximately 165 
airports.\1\ TSA has indicated that each machine costs around 
$170,000.\2\
---------------------------------------------------------------------------
    \1\ Transportation Security Administration. March 22, 2012. http://
www.tsa.gov/approach/tech/ait/index.shtm.
    \2\ Lord, Stephen. Testimony by the Government Accountability 
Office, GAO-10-484T, March 17, 2010. http://www.gao.gov/assets/130/
124207.pdf. March 22, 2012.
---------------------------------------------------------------------------
    A conservative estimate would indicate that to date, the Federal 
Government has invested more than $1 billion dollars in this 
technology, excluding software upgrades and staffing allocations. 
Therefore, we are keenly interested in the utilization concerns raised 
by your most recent report and would like to request a follow-up audit 
on TSA's efforts to address utilization challenges identified in your 
previous work.
    If you have any questions, please contact Cherri Branson, Chief 
Counsel for Oversight.
            Sincerely,
                                        Bennie G. Thompson,
              Ranking Member, House Committee on Homeland Security.
                                        Sheila Jackson Lee,
    Ranking Member, Subcommittee on Transportation Security, House 
                                    Committee on Homeland Security.

    Ms. Jackson Lee. Let me raise this question with both Mr. 
McLaughlin and Mr. Nicholson. Earlier this week, in response to 
GAO's recent findings on the low utilization of AIT at 
airports, I wrote to the Comptroller General requesting that 
further audits be conducted on the use of AIT machines. Some in 
Congress have expressed the desire to offset funding for other 
programs by reducing the funding for screeners by roughly $40 
million.
    It is my understanding that the fiscal year 2013 staffing 
increase for TSOs in the President's budget is intended to 
annualize screeners supporting the use of AIT. What would be 
the consequences of failing to annualize those TSOs?
    Then let me just add, I am not from this area, but I was in 
Orlando on some business dealing with the tragedy that occurred 
in Sanford, Florida. I did not have the opportunity to enjoy 
Orlando, but I did have to land in that airport. I take 
advantage, Mr. Chairman, of the AITs whenever I can. I was 
shocked at the distinctive distinction between the old software 
and the sophisticated software, or the new technology, if you 
will, which happens to be at Bush Intercontinental. I almost 
thought I was in a cartoon show, in terms of the distinction.
    So this is a serious matter. Can both of you answer that 
question for me? Take into consideration, one of the busiest 
tourist points of destination in the United States doesn't have 
this sophisticated AIT. I said I would make the request, and I 
will be working with Congresswoman Brown on this issue.
    Yes.
    Mr. McLaughlin. Let me start from the operational side and 
just speak to the AIT issue for a moment.
    I have read your letter and fully support further audits. 
Since the 2011 time frame where the GAO audit was conducted, I 
am really pleased to say that our utilization of AITs has gone 
up significantly. So just under 50 percent of customers, at 
this point, are going through AITs on any daily basis.
    In terms of the underutilized units that were reported in 
the GAO study, I can also confirm that that number has been 
reduced by some 200 percent. In fact, over a 2-month period 
from December into early February, just in that 2 months alone, 
we improved our utilization by some 45 percent just based on 
efforts that we are taking on within TSA to, again, improve our 
effectiveness and our efficiency, because we believe that tool 
is the most effective detection equipment that we have against 
both metallic and non-metallic threats.
    With regard to the older generation versus the newer 
generation in terms of the L-3 versus the Rapiscan or the ATR 
and the non-ATR, we agree that ATR revolutionizes the quality 
of both that screening experience for the individual as well as 
the efficiency of the equipment. So we are working aggressively 
with Rapiscan to move forward with ATR with them, as we 
continue to move forward----
    Ms. Jackson Lee. Mr. McLaughlin----
    Mr. McLaughlin [continuing]. With other machines that have 
ATR.
    Ms. Jackson Lee [continuing]. I appreciate that. Get to the 
impact on security of these.
    Mr. McLaughlin. So, clearly, we believe the impact on 
security is significant. Again, we believe that these machines 
are the most effective tool we have against metallic and non-
metallic threats.
    The fact that we have increased our utilization 
substantially means that more and more customers are going 
through them. In fact, I would also tell you that we are just 
now at 1 percent of customers who refuse to use them; 99 
percent use them. The more people that go through them, the 
less invasive the experience is----
    Ms. Jackson Lee. Right.
    Mr. McLaughlin [continuing]. For the majority of people 
that don't mean any harm, and the better detection we have for 
that very, very small----
    Ms. Jackson Lee. But the TSO officers complement that 
increasing utilization, right? They are an important aspect to 
that increasing utilization?
    Mr. McLaughlin. They are driving that utilization.
    Ms. Jackson Lee. Thank you very much.
    Mr. Nicholson.
    Admiral Nicholson. Yes, you are correct in your assumption; 
we are not asking for new positions for AIT in the fiscal year 
2013 budget. In fiscal year 2012, when you get your 
appropriation, it generally funds a portion of the year, 
assuming that you wouldn't be able to hire and bring new people 
on for a full year. Fiscal year 2013 annualizes those folks 
that we are hiring and bringing on for a part of the year.
    So, to not get that annualization would have a couple of 
different consequences. It could affect--we would have to 
attrit out people that we have brought on board and hired 
already, assuming that they would be annualized in fiscal year 
2013 as they were supported in fiscal year 2012. If you took 
that approach, then you are either going to go back to 
underutilizing the AIT machines because you won't have the 
staff sufficient to operate them the entire day so you would 
operate them at a lower rate, or if you did choose to operate 
them, as Chris has said, the most effective technology that we 
have for that detection capability, then you would have to walk 
people away from other layers of security and other duties that 
you have established also.
    Ms. Jackson Lee. I am going to yield back, but let me just 
get a quick--just because you didn't finish the circle. So to 
use the resources that you are asking for to say, let's offset, 
we are in a tight budget year, in actuality it would hurt and 
undermine what you are trying to do in terms of ensuring the 
resources necessary that you have assessed, using real 
efficiency, for protecting the Nation's airports. These are not 
additions; these are to maintain this level of security.
    Admiral Nicholson. Yes, ma'am. The decision that was taken 
on the resource and the capability last year, to be fully 
realized, would have to have the follow-on capability that the 
annualization provides in fiscal year 2013.
    Ms. Jackson Lee. I thank you, Mr. Nicholson.
    I am going to yield back at this time, Mr. Chairman.
    Mr. Rogers. I thank the gentlelady.
    Mr. McLaughlin, I understand you have a flight to catch. I 
wanted to let you know we appreciate you being here, and you 
are excused.
    Mr. McLaughlin. Thank you.
    Mr. Rogers. But I do want the other witnesses to know that 
now when we ask a question, you can't say, oh, that is his 
expertise, he just left.
    Ms. Jackson Lee. Mr. Chairman, may I--Mr. McLaughlin, I 
didn't mean to cut you off, but I wanted you to get to that 
circle. So thank you very much for your testimony.
    Mr. Rogers. Yes, thank you for being here.
    Mr. Byrne, you talked a little while ago about attrition 
rates, and I was very pleased to hear you talk about the 
improvement in attrition rates and morale. But you talked 
globally. One of the things that you didn't make reference to 
is at the more senior-level positions. We have had a terrible 
problem within the entire Department keeping senior folks. Have 
you seen improvement at that level as well?
    General Byrne. We don't see the attrition at the senior 
levels as a serious problem at TSA.
    Mr. Rogers. It was. So it is not down?
    General Byrne. At the current time, it is not.
    Mr. Rogers. Good.
    General Byrne. I believe that we have great stability at 
the mid-level and the senior level within the organization. As 
this organization continues to grow, I think that continuity is 
going to grow as we continue to develop our leaders and they 
move up in the ranks.
    Mr. Rogers. Great.
    I want to point out to you that the next panel that we have 
talks about compensation and benefits of employees relative to 
the number of employees. As you will notice, from 2008, 2009, 
2010, and 2011, we saw the compensation costs at a much higher 
level than--and you can look up on the panels. Can you see 
those from where you are sitting? I think you have copies.
    General Byrne. Not quite as clearly as I would like to.
    Mr. Rogers. Do you have a copy at your desk there?
    Admiral Nicholson. Yes, sir.
    Mr. Rogers. But, anyway, can you account for that 
disparity?
    Admiral Nicholson. Yes, sir, I think so.
    One of the things that we did when we were talking about 
the challenges--and it gets to your question on attrition just 
before--is that the attrition that we had back in the 2005-2006 
time line--and on a previous chart we talked about the D- and 
E-band TSOs. To give a little context for those not as familiar 
with the banding system, which is somewhat unique to TSA and 
the FAA and Federal Government, is--it is about--the D-band is 
about the GS-4, GS-5 level. That is what is normally associated 
with an entry-level, secretary-type of payment.
    So our attrition was so substantial, in excess of 50 
percent in fact, in the part-time employees that we had to 
restructure and create a career opportunity to get after the 
problem and extend benefits. So what we did and what you are 
seeing in those lines with respect to the compensation level is 
a reflection of a very deliberate on-budget attempt that we 
made to change the restructuring and the banding level of our 
TSOs.
    Mr. Rogers. Okay.
    There is one more panel. Can you put this one up? I don't 
know how you are referring to it.
    There it is. Again, you see the big disparity between the 
number of passengers and the costs for our screening. Can you 
take another shot at trying to help me understand why we are 
having that delta?
    Admiral Nicholson. Yes, sir. There is a little bit of a 
fluctuation that it goes up and down, and there are so many 
moving parts to this. So I will give a shot at a couple of 
different angles to it.
    When you go back to start at number 4 and you see the 
growth, if you were to assume that the staffing level was right 
for the passenger volumes back in 2004, then when you got the 
growth in 2005 and 2006, staffing levels should have gone up 
markedly.
    What happens is you have some flexibility within wait times 
into how you plan your wait times, and that will drive some of 
your staffing. If your wait times start to go up, what it 
drives you toward is opening lanes earlier than you might 
normally open. That comes with a fixed cost in terms of 
personnel to be able to do the security.
    So, later on, as you see things like the impact on the 
baggage fee to passengers, as they start driving more things--
you might have fewer passengers, but the electronics between 
2008 and 2010 went up almost 7 percent a year. That is a whole 
additional screenshot that a TSO has to judge as they go 
through the carry-on baggage check. The clutter in the baggage 
from the baggage as you move up takes a longer period of time 
to resolve those bags.
    So to keep your flow going, even though the passenger level 
might have dropped, the amount of time it took to clear an 
individual passenger, on average, went up.
    Mr. Rogers. Okay.
    Let me change gears a little bit. There is a bipartisan 
concern--and I have talked with Administrator Pistole about 
this--with this committee about TSA's deficiency when it comes 
to public relations. While I can appreciate the effort, TSA's 
blog is not necessarily what many of us had in mind when it 
came to fixing this problem.
    Here are a few examples of what I am talking about. On AIT, 
TSA's blogger writes that it is one of the best tools we have 
to detect, ``things that go boom.'' In another posting, TSA's 
blogger suggests, after reading the blog, one should be sure 
to, ``lather, rinse, and repeat.'' No. 3, there is another 
official posting called ``TSA Says Yes to the Dress,'' in which 
TSA instructs women on how they can bring their wedding dress 
through security.
    Another posting reported on an incident at Norfolk Airport, 
where several items were detected under a sewn-in patch in a 
carry-on bag. TSA's official blog says the incident, ``sounds 
like the beginning of a joke.'' ``So this razor, a saw blade, 
and a garrote walk into a bar . . . ''.
    You all see where I am going with this. I mean, TSA has 
enough image problems. I hope that you can give me some 
assurance that this is not acceptable in your view and that 
there is going to be some effort to remedy this.
    Don't all jump at one time. I know he left the room, so----
    General Byrne. Well, sir, two points.
    Clearly, these were probably steps that were taken to put a 
humorous spin on things. Obviously, they have not been received 
very well. We will take that message back. We will work with 
our Public Affairs Office to ensure that the right message is 
getting out, a constructive message is getting out.
    We have done a little bit of reorganization, just for your 
information. I spoke earlier about our Training and Workforce 
Engagement. We are basically splitting the responsibilities out 
so that our Public Affairs will be more direct involved with 
external relations, and then the TWE will be making sure the 
message gets out to our employees.
    But we will very clearly go back and have a little better 
scrutiny on some of these issues that could be taken the wrong 
way in an effort to be humorous, where obviously it may not be 
in some people's eyes.
    Mr. Rogers. Great. Thank you.
    The Chairman now recognizes Mr. Davis for his next set of 
questions.
    Mr. Davis. Thank you very much, Mr. Chairman.
    Mr. Nicholson, in March 2009, DHS launched a Department-
wide efficiency review. What efficiencies and cost savings have 
been identified during this review?
    Admiral Nicholson. Well, sir, I can talk to the 
efficiencies that we have found in TSA. One of them we have in 
our budget request for this year.
    It is things like looking at our contracts that we have for 
large expenditures of funds. If you look at our IT contract 
overall, you see that it went down about $30 million this year 
in our budget request. That is due to some efficiencies that we 
intend both in terms of contracting and better management of 
resources and better assessment of the data we have on the 
usability of the resource.
    Another example might be in our technology equipment. As we 
negotiate our maintenance contracts and our purchase contracts, 
those pieces of equipment came with a 1-year warranty. So we 
didn't have to pick up the maintenance costs per unit until it 
had completed 1 year of operations. When we looked at the data, 
we found that our failure rate and problems in that second year 
of operations was very, very small. So we were effectively 
paying for a year of maintenance capability on a machine that 
had a very small failure rate in the second year. So we looked 
at that and got together with vendors and renegotiated the 
terms of the warranty for 2 years, and that saved us about $17 
million.
    So things like that, plus additional controls on travel and 
purchasing, are where we are getting our efficiencies.
    Mr. Davis. The Office of Security Operations uses what is 
known as a staffing allocation model to determine the number of 
screeners needed at airports. Is headquarters staffing also 
based on a formula that aims to match the mission with the 
size?
    Admiral Nicholson. That is a bit tricker. It is trickier--
to give an example, some folks look at acquisitions and 
purchases as lending itself toward numbers of transactions that 
you might have. So if you--and I think that is good if you have 
comparable agencies for transaction-based costing. But you 
could have one transaction that is a very complicated 
procurement that might occupy several people's time, and your 
data or your metric on a per-person would be very difficult to 
match up.
    So, while we have various councils within the support 
service community to take a look and share best practices on 
that, a hard, fast metric on it that is comparable is difficult 
just because of the difference in business models that we use.
    Probably a clearer example of that: The Customs and Border 
Protection does its human resources almost wholly in-house and 
has a very large infrastructure to do all the transactions and 
basic functioning in that support area. Conversely, TSA has 
outsourced and contracted much of that transaction work. So 
they may have people doing the actual transactions that are 
lower-graded, so their grade level might look lower, where we 
have people that are managing contracts that have expertise in 
the area, and the grade level might be higher and a much 
smaller number of people.
    Mr. Davis. Would you agree that, before reducing the number 
of front-line screeners and baggage checkers, that you might 
want to look at supervisory personnel and see how that stacks 
up or matches?
    Admiral Nicholson. Yes, sir, that is something that we look 
at very carefully in the staffing model. So when you take a 
look at the supervisory ratios at the airports--and Mr. 
McLaughlin mentioned it earlier in his testimony--and you get 
the folks that are actually at the point of operations and you 
compare that number to people that you might think were more of 
a supervisor foreman rather than a hands-on foreman and then a 
manager on top of that, those numbers get to be less than 
10,000 people working with a 40,000-person workforce.
    Mr. Davis. Well, thank you very much.
    Thank you, Mr. Chairman. I yield back.
    Mr. Rogers. I thank the gentleman.
    The gentlelady from Texas is now recognized.
    Ms. Jackson Lee. Mr. Chairman, thank you very much.
    Let me just say, I associate myself with the Chairman on 
that random list of non-humorous quotations. I would only say 
this: Unless you are talking about communications among fellow 
employees, where you are trying to be spirited in the 
relationship, I would almost ask Public Affairs to cease and 
desist on comedy with TSO to the general public. I think there 
are so many other places that can be comedic--Health and Human 
Services maybe, I am not sure. But I think the Federal 
Government errs more on the side of professionalism. When you 
are talking about security, it is not funny. So I would go a 
step further and just say that I like a good joke, but I would 
just join in that cease and desist.
    Let me just throw this out for Mr. Byrne, even though it 
deals with personnel. I have always been concerned, as I 
indicated earlier, about rail and mass transit. So I am just 
wondering, are you using some of these TSOs--are you beginning 
to look at moving some to secure surface transportation? This 
question is just about personnel. Have there been any thoughts 
about transportation security inspectors going over in that 
direction? Any planning that is going on?
    Mr. Byrne or anyone else that can answer that?
    General Byrne. I really can't address that. I do know that 
there are some occasions in our VIPR program where we are doing 
some checks and whatnot. The TSOs will be fully engaged with 
local law enforcement in support of those types of operations 
or those types of reviews.
    I would have to defer and ask Mr. Nicholson if he knows 
anything further.
    Ms. Jackson Lee. Mr. Nicholson.
    Thank you.
    Admiral Nicholson. Yes, ma'am, Mr. Byrne is correct. We 
will draw from that workforce, both in terms of TSOs and in 
terms of inspectors, to try to put packages together for our 
VIPR teams, to draw on the expertise that they have gained 
inspecting in those modes of transportation.
    The other thing that we have is very ad hoc, maybe a couple 
of hours a month, that individual airports will do with mass 
transit agencies or a rail agency and so forth, just to keep 
their readiness up or keep a relationship going on. In the 
event that something were to occur to the transportation 
system, a natural disaster, that disrupted it and security 
became very important on auxiliary roads and different things 
and there was a concern that there may be additional damage, 
supporting that recovery type of operation or responding to 
intelligence or surge operations is done as a matter of 
routine.
    That is outside of the more formal VIPR program, where we 
have the teams that deploy in packages in different regions.
    Ms. Jackson Lee. You are doing that in the context of the 
personnel you have now?
    Admiral Nicholson. Yes, ma'am. We----
    Ms. Jackson Lee. I mean, you are sort of moving people and 
enhancing an effort or a team or your VIPR team, but within the 
context of who you have.
    Admiral Nicholson. Yes, ma'am. We have 37 VIPR teams, 15 of 
which are dedicated to surface transportation. The other 22 are 
intermodal, so they operate in both aviation and rail and mass 
transit and what have you. The other are more regional and 
specific to the airport and the location.
    Ms. Jackson Lee. This could be a numbers game, too. GAO has 
asked TSA to enhance its ability to identify the appropriate 
number of screeners and personnel at airports. Is anyone 
working on that to determine what is appropriate at the 
different airports?
    Admiral Nicholson. For the number of TSOs?
    Ms. Jackson Lee. Yes.
    Admiral Nicholson. Yes, ma'am. We are very confident in our 
screener allocation model. We have been using that to do 
staffing and assignments of personnel since before 2005.
    Originally, we found we had some challenges with it, that 
our experience wasn't exactly what we thought. So we would send 
optimization teams out, and we identified where we found that 
people weren't importing that data correctly so it was giving 
them an additional allowance where they shouldn't have. 
Conversely, we found that the model didn't accommodate some 
nuance of an individual airport, and we were able to modify 
those.
    Ms. Jackson Lee. I appreciate that. I think that is 
important. Maybe you can tell the administrator to keep the 
chairperson and myself really continuously updated as you make 
these--if you have success stories that you have analyzed, 
right down to the very number that allows the American people 
to be secure but also indicates your sophistication and your 
recognition of the importance of efficiency. I think those are 
reports that I would like to have.
    Let me ask just a couple more questions. Thank you, Mr. 
Chairman.
    Mr. Byrne, in the recently-released employee satisfaction 
survey, TSA ranked 232 out of 240 Federal agencies for best 
places to work. Now, I have traveled, as our Members have, on 
just a myriad of opportunities to go through airports, and want 
to say that I do thank those professional employees, many of 
them ex-law enforcement, ex-military, college graduates now.
    I wanted to make the point that, in terms of the increasing 
salaries, Mr. Nicholson, I think that since 2004 there is 
seniority, there is people that I have encouraged you all to 
move and improve on professional development. I assume that is 
part of what has occurred.
    Can you just say ``yes'' to that? Is that part of what sees 
the salaries go up?
    Admiral Nicholson. Yes, ma'am.
    Ms. Jackson Lee. All right. With respect to Mr. Byrne, I 
see people out, and one of the things that they say is that you 
all have no promotion strategy, and so people can stay in the 
TSO forever and ever. So I would be concerned about that.
    I would also like to have a meeting with you to see what 
your diversity is in management. Because it seems that the 
minority TSOs stay where they are forever and ever without 
opportunities for advancement; women, as well. If that is the 
case, we really need to break that cycle.
    So I would appreciate if you would answer the question 
about the 232.
    If Mr. Nicholson would follow up and recognize that--or, I 
recognize that TSA is top-heavy and employs an excessive number 
of headquarters staff who are compensated at an overly generous 
rate. How do you respond to those criticisms?
    Mr. Byrne first, please, on the ranking?
    General Byrne. As far as the workplace surveys, I agree 
with you completely. We want to improve our status there 
because we want to make the workplace a better place for our 
employees.
    But I have to say up front, there are a lot of on-going 
actions inside of TSA to, in some cases, just better publicize 
some of the things we are doing, but to actually make a 
difference.
    I will also tell you--and I think you hit the nail on the 
head when you talked about your experiences going to airports. 
I, like the Representative that spoke earlier, when I travel to 
an airport, I go incognito. But I talk to the TSOs. They have 
no idea that I am part of TSA. But I will tell you, when you 
talk to those TSOs, they are enthusiastic about what they are 
doing. They are enthusiastic about their mission. They know 
where they fit into the security of the United States.
    The problem we have, in some cases, is we are straddled by 
the workplace conditions that we have--trying to find the break 
rooms that are close to where the screeners are working.
    Granted, as Dave indicated earlier, we are doing things to 
increase the pay. That is an issue. Mr. Nicholson didn't 
mention, and I think we should, is that we have probably one of 
the most successful pay-for-performance programs in our PASS 
program, where our TSOs have the opportunity to get bonuses 
based on their performance and how well they do their job.
    We have just recently stood up--and I think this is very 
significant--a new directorate inside of TSA that is going to 
be headed by a peer of ours, another assistant administrator 
who was a previous deputy assistant for the Air Marshals. His 
function in life is to be in charge of training and workforce 
engagement.
    As you go through those surveys, one thing that we continue 
to talk about that we need to do a better job of that comes up 
in the surveys is the leadership. I think we do an outstanding 
job in TSA of promoting people based on their technical skills. 
We have to ensure there is the link-up between that, ensuring 
they are trained, and there are qualified leaders.
    Ms. Jackson Lee. Why don't we continue, because I think I 
probably have more questions on this, with an opportunity to 
meet with you.
    General Byrne. I would look forward to specifically talking 
about the diversity issues that you talked about earlier----
    Ms. Jackson Lee. Yes.
    General Byrne [continuing]. Because I think we are making 
great progress there. We have some issues that we need to work 
with, as you indicated, on the promotions side. But I would 
look forward to meeting with you on that.
    Ms. Jackson Lee. I will right now have a quiet 
disagreement, but will look forward to information on those 
numbers as it relates to minority employees.
    But, Mr. Nicholson, can you quickly just tell me about the 
top-heaviness and the load that we are carrying in corporate 
headquarters?
    Admiral Nicholson. Yes, ma'am. I think sometimes there are 
different views because of the way we present our budget and 
how we do things.
    So if you were to look at--we have an appropriation that is 
called the support appropriation. But within that support 
appropriation and the way our business model is, many of the 
numbers of people that you see in that support appropriation 
maybe will come to Washington, DC, once a year or maybe every 
couple of years. They are folks that are out in the field doing 
operational work, that if you were to look at another agency's 
budget, a more traditional salaries and expenses type of model, 
you would see those folks working as really performing 
operational work. All of our intelligence personnel, for 
example, even the intelligence people that we have at 31 
airports around the United States, show up as a headquarters 
type of operation.
    So you have that type of information, just by the nature of 
the presentation, that sometimes is misleading and makes it 
look bigger than it is.
    Ms. Jackson Lee. Well, let me thank you for that. Why don't 
we ask you to give us that back. I didn't see that in your 
testimony, but that is very helpful. I would like to see that 
further explained, if you would.
    Mr. Chairman, I don't know if he could submit it in writing 
to the committee. I would like to get a copy so that I could 
see that a lot more clearly and be able to understand it 
better.
    Admiral Nicholson. Yes, ma'am.
    Ms. Jackson Lee. So let me just conclude by thanking you 
and saying that I want to see you efficient, not so lean that 
we jeopardize the American people, but certainly efficient, 
certainly unprivatized, and working to ensure that you do the 
very best every day on behalf of the American people.
    Mr. Chairman, thank you. I yield back.
    Mr. Rogers. I thank the gentlelady.
    I have one last question, and that is this: Initially, when 
TSA proposed the use of the automated target recognition, the 
change in software, where instead of seeing the actual body you 
saw, like, a stickman or a gingerbread man, we were told that 
the software would reduce the number of airport screeners 
required to operate the AIT machines, advanced imaging 
technology machines. However, TSA now says the machines with 
ATR will require more screeners than previously anticipated.
    Can you please explain to me how just by changing the image 
that is displayed on the screen we have to have more people 
instead of less? I would take it from anybody.
    Admiral Nicholson. Yes, sir. It is the difference between 
reality of when we first fielded the AIT machines and what was 
presented in the budget in terms of an allowance to operate the 
machines.
    The assumption in the budget was one of a rosy forecast 
that the ATR, or automated target recognition, would come very 
quickly in the process. We also built in an assumption that 
there may be a little bit more time taken at the outset as you 
roll it out, but once the public got used to divesting and 
going through the machines and once the TSOs got familiar with 
the machines, that would progress very quickly.
    The latter happened. The public that uses it, flies 
frequently, gets it. The TSOs have become more efficient in 
processing people through.
    We still have just under 250 machines that don't have ATR. 
That is in the process of being field-tested now. The reality 
of standing it up and fielding the machines to get the 
capability out there required an observation room. That 
position was over and above the five FTEs that we assigned to 
the machine. So what happened was, we allocated more people 
from existing resources to operate that.
    So if you were to ask the question of, what is it going to 
take to operate the machines when you first field them, in some 
cases we had, you know, 10, 12, 11 people because of the nature 
of a very big airport, many shifts a day, 7 days a week. They 
were diverting half a dozen people just to be able to operate 
the AIT full-time. When you got the ATR, you could walk those 
people back to their original purpose.
    So the budget number turned out to be right, as we looked 
at it. But the use of people from other layers of 
transportation took longer than we thought to get it fielded. 
We are still waiting for the qualification of the ATR on about 
250 machines.
    Mr. Rogers. Great.
    Do you have any more questions?
    Ms. Jackson Lee. Not at all, Mr. Chairman.
    Mr. Rogers. Mr. Davis, do you have any more questions?
    Mr. Davis. No.
    Mr. Rogers. All right.
    Well, thank you. Listen, I appreciate you all taking the 
time to be here and be helpful.
    To be perfectly candid, I am a little disappointed we 
didn't get more clarity on the difference between the number of 
passengers and the cost. Mr. Nicholson and Mr. Byrne, you all 
have both made enormous sacrifices for our country; I 
appreciate your military service. But I will also point out, as 
a rear admiral and a major general, if you had asked one of 
your officers to explain that cost differential, I don't think 
you would have been satisfied if they couldn't explain it.
    So we are going to give you all some more questions in 
writing. I hope you all start thinking about the problem that 
we as Congress are going to have in dealing with this, because 
it is coming; we are going to be asked in this committee, 
working in an oversight role with DHS, how we can get by with 
less. One of the things we have to come to grips with is how we 
can deal with this disparity, that we have so many fewer people 
flying now but yet our costs are going up at a rate that is in 
the opposite direction.
    So, as you all ponder that when you get back, I hope you 
will be able to give us some insight and we can find some way 
to bring these two things together. Because if we do have a 
situation where, like you mentioned earlier, the economy gets 
better, we are going to see that passenger rate go back up. We 
need to be prepared to be able to deal with that.
    So, with that, thank you all for being here, and this 
hearing is adjourned.
    [Whereupon, at 4:30 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
